                       U.S. Senate

Committee on Homeland Security & Governmental Affairs




                 Statement for the Record

        Curbing Federal Agency Waste and Fraud:
 New Steps to Strengthen the Integrity of Federal Payments

         The Honorable Patrick P. O’Carroll, Jr.
     Inspector General, Social Security Administration

                       May 8, 2013
Good morning, Chairman Carper, Ranking Member Coburn, and members of the Committee. It is a
pleasure to appear before you, and I thank you for the invitation to testify today, to discuss Federal
agencies’ efforts to reduce improper payments. This is an important undertaking across the Federal
Government, as agencies work to identify causes of improper payments, and explore ways to improve
payment accuracy and prevent wasteful spending.

Improper Payments

Federal agencies reported $108 billion in improper payments in fiscal year (FY) 2012—a small
reduction from FY2011. As Federal employees, we must ensure that taxpayer dollars are spent wisely
and effectively, and that government benefits are administered correctly. Improper payments are any
payments from a Federal program that should not have been made or were made in an incorrect amount;
I should note that not all improper payments are overpayments, as underpayments are also considered
improper. This issue encompasses a number of financial transactions, including payments to vendors for
services rendered, and benefit payments made to ineligible program participants. Improper payments
occur for many reasons—certainly fraud, but also poor understanding of reporting responsibilities or
inability to report, administrative errors, and other reasons.

Federal agencies and their inspectors general have worked closely with the Office of Management and
Budget (OMB) and the Treasury to identify and reduce improper payments in recent years, as President
Obama issued Executive Order 13520 on Reducing Improper Payments in 2009, and the Congress
passed the Improper Payments Elimination and Recovery Act (IPERA) in 2010 and the Improper
Payments Elimination and Recovery Improvement Act (IPERIA) in 2012. IPERIA included a “Do Not
Pay” provision, which called for agencies to review available databases—such as the Social Security
Administration’s (SSA) Death Master File (DMF) and the Treasury’s Debt Check Database—to prevent
improper payments by verifying recipient eligibility before releasing Federal funds.

Since the Office of the Inspector General (OIG) at SSA was established in 1995, our primary goal has
been to identify and help reduce SSA’s improper payments—a formidable task, given the large dollars
involved in SSA’s benefit programs. We work toward this goal by conducting audits to identify areas for
improvement in SSA’s programs and processes; and conducting criminal investigations to identify and
prevent fraud. On the audit side, we recently completed reviews that identified potential SSA
overpayments and underpayments.

    In Usefulness of Department of Homeland Security Travel Data to Identify Supplemental
     Security Income Recipients Who Are Outside the United States, we estimated SSA made about
     $152 million in overpayments to SSI recipients because of unreported absences from the United
     States between September 2009 and August 2011. SSI recipients are ineligible when outside the
     country for more than 30 days. We recommended SSA and DHS develop a process so that SSA
     could access DHS’ travel data on individuals who enter and leave the United States. As of April
     2013, SSA was pursuing access to this data and developing a computer matching agreement.

    In Controls over the Issuance of Supplemental Security Income Installment Payments, we
     estimated that SSA had not paid about $55 million to more than 13,000 SSI recipients. These
     underpayments were not made because SSA did not establish controls to ensure that it made
     these payments after staff suspended or terminated the recipients’ SSI payments. In March 2013,
     SSA agreed with our recommendations and was taking action on the cases identified in the audit.

                                                   1
Also in FY2012, our investigators achieved $96.5 million in SSA recoveries and restitution; and
projected $398.5 million in savings from programs such as the Cooperative Disability Investigations
initiative, which detects potential fraud and reduces the number of fraudulent disability payments.

Agency Compliance with Existing Laws

Executive Order 13520, IPERA, and IPERIA included provisions that required input from the Council
of Inspectors General on Integrity and Efficiency (CIGIE). With a history of identifying SSA’s improper
payments, our office was asked to take a leadership role in that process. For over 3 years, the SSA OIG
has served as the liaison for CIGIE to provide input to OMB, and coordinate implementation of the
Executive Order and improper payment laws. This liaison role has included attending workgroup
meetings, reviewing and commenting on IG and agency improper payment plans, and coordinating
among OIGs, OMB, and the Treasury.

Our office, on behalf of CIGIE, recently completed the report, Summary of Inspectors General
Compliance with the IPERA of 2010. IPERA called for each agency’s OIG to determine whether its
respective agency complied with key IPERA requirements—such as publishing improper payment rates
and corrective action plans—and to report on their findings annually. For the report, we reviewed OIG
IPERA reports that were due in March 2012.

We reviewed 64 OIGs, and we found that almost all completed IPERA compliance reviews in a timely
manner. Additionally, we found:
    27 OIGs concluded their agency complied with IPERA;
    11 OIGs concluded their agency did not comply with IPERA;
    21 OIGs did not issue a report because their agency did not report high-dollar improper
      payments (more than $10 million) under IPERA; and
    5 OIGs for intelligence agencies did not make their reports available to the public.

Our report summarizes the reasons given by 11 OIGs that concluded their agency did not comply with
IPERA. Some examples include:

      The Department of Health and Human Services (HHS) OIG reported that HHS had four
       programs that did not meet all IPERA requirements; two of the programs did not report improper
       payment estimates, while the other two reported improper payment rates greater than 10 percent.

      The Treasury Inspector General for Tax Administration (TIGTA) reported that the Internal
       Revenue Service (IRS) did not publish annual reduction targets; discuss progress toward meeting
       those goals; or report an improper payment rate less than 10 percent for the Earned Income Tax
       Credit Program.

      The U.S. Department of Agriculture (USDA) OIG reported USDA did not always report
       estimates for high-risk programs; provide complete information about program corrective
       actions; meet annual reduction targets; or report error rates below specific thresholds.

In another recent report completed on behalf of CIGIE, Summary of Inspector General Reports Related
to Executive Order 13520 on Improper Payments, we reviewed work done by OIGs for the six agencies
with high-priority programs with significant improper payments (more than $750 million). We found
                                                   2
that OIGs for those six agencies—Department of Labor, HHS, Department of Housing and Urban
Development (HUD), SSA, TIGTA, and USDA—all reviewed their agency’s Accountable Official and
Quarterly High-Dollar reports, as required.

Of course, as SSA’s OIG, we have specifically reviewed SSA’s actions related to IPERA and Executive
Order compliance. In a March 2013 report, we found the Agency accurately reported improper payment
information; however, SSA could improve reporting by including information on significant changes in
improper payment amounts; and it should review existing corrective actions and determine whether any
efforts could be intensified to reduce or prevent additional improper payments.

And in a December 2012 report, we determined that SSA met all high-dollar overpayment reporting
requirements in Executive Order 13520. However, the Agency could have employed a different
methodology and taken additional steps, such as analyzing other available data, to identify and report
additional high-dollar overpayments and increase transparency.

Efforts to Identify and Prevent Improper Payments

As I mentioned, IPERIA included a “Do Not Pay” provision, which requires agencies to check lists of
deceased or ineligible individuals before making government payments. SSA, then, must ensure it
collects and maintains accurate death records included in the Agency’s DMF to prevent its own and
other agencies’ improper payments.

The DMF is an extract of SSA’s Numident—the Agency’s database of Social Security number (SSN)
holders—and it contains about 85 million records. SSA receives about 2.5 million death reports annually
from many sources, including family members, funeral homes, and State agencies. Because SSA does
not receive death records for all deceased individuals, the Agency does not guarantee the file’s accuracy.
A person’s absence from the file does not guarantee the person is alive.

SSA has agreements in place with other Federal agencies, such as the Department of Veterans Affairs, to
share death information. However, a web-based system known as Electronic Death Registration (EDR)
results in improved data quality and more rapid compilation of death data. EDR is highly accurate
because, when fully used, a State verifies the name and Social Security number of each deceased
individual against SSA’s records before transmitting the death report. Based on Federal funding since
FY2002, 36 of the 57 vital statistics jurisdictions have electronic death records capacity. The
President’s FY2014 Budget supports funding for the Centers for Disease Control’s National Center for
Health Statistics to implement EDR in the 21 remaining jurisdictions over four years.

We have recently conducted several audits related to the accuracy of DMF data:

    In a December 2012 report, we estimated about 10,000 beneficiaries had unresolved date-of-
     death discrepancies between the SSA’s Numident and its Master Beneficiary (MBR) and
     Supplemental Security Records; about 1,400 had undetected improper payments of about $6.7
     million; about 8,400 had an incorrect date of death on the DMF.

    In a July 2012 report on deceased Title II beneficiaries, we identified about 1.2 million
     beneficiaries who had a date of death on the MBR, but they did not have death information on
     the Numident, which is used to create the DMF. Generally, the deaths were not on the Numident
     because the beneficiaries’ personal information (such as date of birth) on SSA’s payment records
                                                  3
       or death report did not precisely match the beneficiaries’ information on the Numident.

    In a May 2013 report, we determined that as many as 182,000 deceased recipients’ deaths were
     not reported on the DMF; about 1,000 had earnings on SSA’s Master Earnings File in 2011 that
     were recorded one or more years after their death. In addition, we found several cases in which
     employers made E-Verify inquiries, and States made voter-verification requests, for deceased
     recipients, and SSA did not identify that the individuals were deceased.

Our auditors have also looked at other potential data matches among government agencies that could
reduce improper payments. In an August 2012 report, our auditors showed how SSA could use Medicare
claim data to identify overpayments to deceased beneficiaries. A match of SSA and Centers for
Medicare and Medicaid Services (CMS) beneficiary data allowed SSA to identify deceased beneficiaries
based on their enrollment in, but non-usage of, Medicare. We estimated that SSA overpaid 890 deceased
beneficiaries about $99 million. We recommended that SSA work with CMS to establish a data-use
agreement to regularly perform a similar data match.

As that example shows, as well as the previously discussed audit on how SSA could use DHS’ travel
data, Federal agencies and their OIGs should use any and all tools that can improve payment accuracy,
including analysis of internal and external data. In 2010, our auditors worked with DoL to compare its
Office of Workers’ Compensation Programs data to SSA records. We identified Federal employees who
received disability benefits in the same year they received Federal Employees’ Compensation Act
(FECA) payments. We estimated $43 million in improper payments to about 961 beneficiaries for whom
SSA did not consider FECA payments in calculating their benefit amounts.

In addition, DoL is currently promoting increased cross-comparison of Unemployment Insurance (UI)
claimants with the National and State Directories of New Hires to identify individuals who have
returned to work, in an effort to reduce UI overpayments. As of April 2013, 47 state workforce agencies
have implemented new standard data-sharing procedures and immediate claimant-notification processes.

SSA and other agencies should also utilize more non-governmental databases to improve payment
accuracy. SSA already receives data from the IRS to verify income, but in recent years, the Agency went
further, implementing the Access to Financial Institutions (AFI) initiative, which allows it to access
financial institutions’ data to verify an applicant or recipient’s self-reported resources. In 2011, SSA
completed the AFI rollout to all 50 States, the District of Columbia, and the Commonwealth of the
Northern Mariana Islands. Assuming that SSA had used its current account verification process on a
long-term basis, the Agency estimates that the account verifications expected to be completed in
FY2013 would yield an estimated $365 million in lifetime Federal SSI program savings.

We encourage Federal agencies to support any legislative proposals that would identify and prevent
more improper payments in their programs. The OIG community is pursuing an exemption to the
Computer Matching and Privacy Protection Act of 1988 (CMPPA), which would exempt OIGs from a
requirement for a formal computer matching agreement before they can match data with other entities to
identify fraud and waste. This provision impedes OIG efforts to detect improper payments and identify
weaknesses that make Federal programs vulnerable to fraud. In 2010, the HHS and its OIG obtained an
exemption for data matches designed to identify fraud, waste, and abuse; and we believe SSA should
have a similar exemption.


                                                   4
IPERA allows up to 5 percent of the amounts collected from recovery auditing by an agency to be used
by the IG of that agency; the money is to be used to carry out this new law or any other activities of the
IG relating to investigating improper payments or auditing internal controls associated with payments.
However, this provision applies only to recoveries of overpayments made from discretionary
appropriations, and for SSA/OIG, that applies only to recoveries of overpayments made from SSA’s
administrative expenses, not SSA’s benefit programs.

We and other OIGs continue to support legislation to establish an agency revolving fund for integrity
activities to help ensure payment accuracy or an expansion of the recovery auditing provisions of
IPERA to all Government funds, not just discretionary funds. In our case, we have proposed an
indefinite appropriation to make available to SSA 25 percent, and to OIG 5 percent, of actual
overpayments collected, for use solely on integrity activities that provide a continuous return on
investment.

Finally, I should note that SSA and OMB do not consider unavoidable overpayments to be improper.
Thus, payments that would not have been made if a stewardship review, like a medical continuing
disability review, had been, but was not, conducted when due, are not counted as improper payments by
SSA. We, however, believe these payments are improper and should be part of the discussion about
SSA’s payment accuracy, since SSA could potentially have prevented those payments by timely
performing all identified medical continuing disability reviews. In a March 2010 report, we estimated
SSA would have avoided paying at least $556 million during calendar year 2011 if it had conducted the
medical CDRs in the Agency’s backlog when they were due.

Conclusion

Federal agencies and their OIGs have made a concentrated effort to reduce improper payments and
improve payment accuracy in recent years. Agencies like SSA are working to improve their reporting of
improper payments and identify overpayment and underpayment causes and solutions. This important
collaboration among Federal agencies, OMB, the Treasury, and the CIGIE will continue in an effort to
improve administrative efficiency and service delivery.

This OIG has done, and continues to do, significant audit and investigative work to identify areas where
SSA is vulnerable to improper payments, and to recommend actions to reduce and eliminate those
errors. As similar efforts occur across government, we will continue our liaison role between the IGs and
OMB, and we will provide information to this Committee as requested.

I thank you again for the invitation to be with you here today. I am happy to answer any questions.




                                                     5
